CERTIFICATE OF SERVICE
NO. TBD
Bradley William Kennedy
Petitioner(s)
v.
Stephen Morris, Warden (ASPC Eyman Complex);
Mark Brnovich, Attorney General for the State of Arizona
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
BRADLEY WILLIAM KENNEDY PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and
correct copies of the same by USPS Priority mail, postage prepaid for delivery to the following
addresses:
Michael T. O'Toole
Acting Asst. Atty. General
Office of the Attorney General
1275 W. Washington Street
Phoenix, AZ 85007-2926
(602) 542-4686
michael.otoole@azag.gov
Counsel for Stephen Morris, Warden, et al.

Lucas DeDeus

March 19, 2020
SCP Tracking: Rosenquist-42104 N. Venture Drive, Ste. A122-Cover White

